No. 20-303
IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,
v.
JOSÉ LUIS VAELLO-MADERO,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
BRIEF OF U.S. CITIZENS FOR
EQUAL PROTECTION, INC.
AS AMICUS CURIAE IN SUPPORT
OF RESPONDENT
JOSÉ R. GONZÁLEZ-IRIZARRY
COUNSEL OF RECORD
For JRGI LAW LLC
Club Manor
1228 Tomás Agrait St.
San Juan, Puerto Rico 00924
(787) 565-9786
jrgilawllc@gmail.com
Counsel for Amicus Curiae

i
QUESTION PRESENTED
Whether Congress violated the equal-protection
component of the Due Process Clause of the Fifth
Amendment by establishing Supplemental Security
Income—a program that provides benefits to needy
aged, blind, and disabled individuals—in the 50
States and the District of Columbia, but not extends
it to Puerto Rico.

ii
TABLE OF CONTENTS
Page
Question Presented

i

Interest of the Amicus Curiae

1

Introduction

3

Statement

5

I. Facts and Legal Proceedings
II. Legal and Economic Background
A. P.R.’s legal relationship with the
U.S.
B. General Economic Background
C. P.R.’s economy has been, and
continues to be, in crisis, as it
lacks internal effective tools for
recovery
D. Federal Benefits Programs
E. S.S.I.
Argument

5
5
5
8

9
18
19
21

I. The U.S. raised new issues and
arguments before this Honorable
Court that it did not present before
the District nor the Court of Appeals

21

II. The AABD does not promote P.R.’s
ability to govern itself, nor allows
P.R. to tailor its laws and programs to
reflect “local conditions”

24

iii
III. P.R.’s unique degree of autonomy
and relationship to the U.S. that
has no parallel in our history,
affords it a great degree of
autonomy and self-determination
to decide to use its money to find a
territorial supplement outside the
AABD program is not realistic and
fails to support the U.S. position

26

IV. P.R. U.S. citizens pay all federal
taxes required by the fiscal laws
of the U.S.

30

Conclusion

37

Prayer for Relief

38

iv
TABLE OF AUTHORITIES
Pages
CASES
Boumediene v. Busch,
553 U.S. 723 (2008)
Commonwealth of Puerto Rico v.
Sánchez-Valle,
136 S. Ct. 1863 (2016)
Downey v. Bidwell,
182 U.S. 244, 287 (1901)
Fin. Oversight & Mgmt. Bd. for Puerto Rico
v. Aurelius Inv., LLC,
140 S. Ct. 1649, 1655 (2020)
Martínez v. U.S. Dep’t of Health & Human
Servs., Civil Action No. 18-01206-WGY
at p. 1 (D.P.R. Aug. 3, 2020)
National Association of Social Workers
v. Harwood,
69 F.3d 622, 624-29 (1st Cir. 1995)
Peña-Martínez v. Azar, 376 F. Supp. 3d 191,
198 (D.P.R. 2019)
Plessy v. Ferguson, 163 U.S. 537, 552 (1896)
Puerto Rico v. Franklin California Tax-Free
Trust,
136 S.Ct. 1938, 1942-43 (2016)
Rodríguez v. Popular Democratic Party,
457 U.S. 1, 8 (1982)
Singleton v. Wulff,
428 U.S. 106 (1976)

4

29
27

12

4

22
20
37

28
29
22

v
Pages
United States v. Madero,
356 F. Supp. 3d 208, 213 (D.P.R. 2019)
4
United States v. Vaello-Madero,
956 F.3d 12 (1st Cir. 2020)
5,10,21,23
CONSTITUTION
Art. IV, Sec. 3, Cl. 2 (Territory Clause)
TREATIES
Treaty of Peace between the U.S. and the
Kingdom of Spain, Apr. 11, 1899, 30 Stat.
1754 (1899)
STATUTES AND REGULATIONS
8 U.S.C. § 202
8 U.S.C. § 1402
8 U.S.C. § 1151 et seq.
11 U.S.C. § 903(1)
26 U.S.C. § 933
42 U.S.C. §§ 1381-1383f
48 U.S.C. § 731b
48 U.S.C. § 731c
48 U.S.C. § 731d
48 U.S.C. § 731e
Sup. Ct. R. 37.2(a)
Sup. Ct. R. 37.6
LEGISLATION
31 Stat. 77 (1900)
31 Stat. 413 (1917)

28

5
6
6
6
12
8
2
7
7,8
8
8
1
1
5
5

vi
39 Stat. 951 (1917)
61 Stat. 74 (1947)
66 Stat. 327 (1952)
118 Cong. Rec. 33,999 (1970)
Immigration and Nationality Act of 1952,
66 Stat. 163
Merchant Marine Act of 1920,
Pub. L. 66-261, 41 Stat. 988
Nationality Act, 8 U.S.C. § 202
1948 Amendment of 1917 Jones Act and
1940 Nationality Act, Pub. L. No. 80776 [§5d & 404(c)] (1948 Pagán/FernósIsern Amendment)
Organic for Puerto Rico (Jones-Shafroth
Act), Pub. L. No. 64-368, 39 Stat. 957
(1917)
Puerto Rico Federal Relations Act (Law
600), Pub. L. No. 81-600, 64 Stat. 319
(1950)
Social Security Act of 1935,
Pub. L. 74-271, 49 Stat. 620,
enacted August 14, 1935
MISCELLANEOUS
Law Reviews
Andrew Hammond, Territorial
Exceptionalism and the American
Welfare State (July 13, 2020). 119
Michigan Law Review, 1639 (2021)

Pages
6
7
8
36
6
11
6

6

27

7,28

31

4

vii
Pages
U.S. Territories, Introduction,
Developments in the Law, 130 Harv.
L. Rev. 1617, No. 6, (2017)
Juan R. Torruella, The Supreme Court
and Puerto Rico: The Doctrine of
Separate and Equal (Rio Piedras:
Editorial de la Universidad de Puerto
Rico (1985), at p. 7
José Trías Monge. Puerto Rico, the Trials of
the Oldest Colony in the World, pp. 111120. Yale University Press 1997
Sergio M. Marxuach, A Brief Economic
History of Puerto Rico Since 1945,
Weekly Review, CNE’s Team of
Experts, (Sept. 17, 2020),
https://grupocne.org/2020/09/17/weeklyreview-september-17-2020 (last visited
August 30, 2021)
Staff, A Reckoning for “Rational” Discrimination: Rethinking Federal Welfare
Benefits in United States-Occupied
Islands, 43 U. Haw. L. Rev. [No. 1]
(2020)
Why Puerto Rico Does not Need Further
Experimentation with its Future: A
Reply to the Notion of “Territorial
Federalism,” 131 Harv. L. Rev. No. 3,
p. 65 (2018)

30

37

29

10

4

28

viii
Pages
News Articles
Alexandra Rosa & Frances Robles,
Pandemic Plunges Puerto Rico Into
Yet Another Dire Emergency,
NY Times (July 8, 2020),
https://www.nytimes.com/2020/07/08/us
/coronavirus-puerto-rico-economyunemployment.html
(last visited August 30, 2021)
Alexia Fernandez Campbell, It took 11
months to restore power to Puerto Rico
after Hurricane Maria. A similar crisis
could happen again., Vox (Aug. 15,
2018),
https://www.vox.com/identities/2018/8/1
5/17692414/puerto-rico-powerelectricity-restored-hurricane-maria
(last visited August 30, 2021)
Arelis R. Hernández, Puerto Ricans still
waiting on disaster funds as Hurricane
Maria’s aftermath, earthquakes
continue to affect life on the island,
Washington Post (January 19, 2020),
https://www.washingtonpost.com/
national/puerto-ricans-still-waitingon-disaster-funds-as-hurricanemarias-atermath-earthquakescontinue-to-afect-life-on-the-island/
2020/01/19/3864fcea-387f-11ea-bb7b265f4554af6d_story.html (last visited
August 30, 2021)

15

13

14

ix
Pages
Christian G. Ramos Segarra, Population
Loss Threatens Puerto Rico's Debt
Restructuring, The Weekly Journal
(Sep. 24, 2020),
https://www.theweeklyjournal.com/
online_features/population-lossthreatens-puerto-ricos-debtrestructuring/article_28cb17e4fe6b-11ea-9093-df665e53cbf8.html
(last visited August 30, 2021)
C.K., More Puerto Ricans Leaving for the
Mainland, The Economist (Mar. 16,
2018), https://tinyurl.com/y8a6vxdj
(last visited August 30, 2021)
Coto, Danica. 6 months after Hurricane
Maria, Puerto Rico pleads for help,
AP (Mar. 16, 2018),
https://apnews.com/article/hurricanemaria-puerto-rico-us-news-ap-topnews-hurricanesaacab7041b4748408bd3911ad476d140
(last visited August 30, 2021)
Delgado, José A. Puerto Rico solo ha
recibido el tercio del dinero, El Nuevo
Día, 20 de septiembre de 2020. See
https://www.pressreader.com/
puerto-rico/el-nuevo-dia1/
20200920/281578063091566 (last
visited August 30, 2021)

16

13

13

15

x
Pages
Díaz Rolón, Ayesa. Apenas arrancan
las obras de recuperación, El Vocero,
18 de septiembre de 2020. See
https://www.elvocero.com/gobierno/ape
nas-arrancan-las-obras-derecuperacion-article_0382622c-f95611ea-9d06-db0f8320e0b.html
(last visited August 30, 2021)
Kyla Mandel, Puerto Rico Recovery Efforts
Plagued by Power Company’s Financial
Troubles (Feb. 20, 2018)
Nicole Acevedo, Stateside Puerto Ricans
demand answers to unused hurricane
aid to Puerto Rico, NBC News (March
10, 2020),
https://www.nbcnews.com/news/latino/s
tateside-puerto-ricans-demandanswers-unused-hurricane-aid-puertorico-n1154236 (last visited August 30,
2021)
Frances Robles, Contractors Are Leaving
Puerto Rico, Where Many Still Lack
Power, N.Y. Times (Feb. 26, 2018),
https://www.nytimes.com/2018/02/26/
us/puerto-rico-power-contractor.html
(last visited August 30, 2021)

14

13

14

13

xi
Pages
Puerto Rico increases Hurricane Maria
death toll to 2,975, BBC News
(Aug. 29, 2018),
https://www.bbc.com/news/world-uscanada-45338080 (last visited
August 30, 2021)
Rebecca Spalding, Economists paint bleak
picture for Puerto Rico’s Future,
Bloomberg News (Nov. 18, 2017,
updated Dec. 25, 2017),
https://www.sentinelsource.com/news/
economy/economists-paint-bleakpicture-for-puerto-ricosfuture/article_7d337278-4a06-575a8536-fa2d4c3217a1.html (last visited
August 30, 2021)
Sergio M. Marxuach, A Brief Economic
History of Puerto Rico Since 1945,
Weekly Review, CNE’s Team of
Experts, (Sept. 17, 2020),
https://grupocne.org/2020/09/17/
weekly-review-september-17-2020
(last visited August 30, 2021)

13

13

10

xii
Pages
Reports
Brian Glassman, More Puerto Ricans
Move to Mainland United States,
Poverty Declines – A Third of Movers
from Puerto Rico to the Mainland
United States Relocated to Florida
in 2018, U.S. Census Bureau,
(Sept. 26, 2019),
https://www.census.gov/library/stories/
2019/09/puerto-rico-outmigrationincreases-poverty-declines.html
(last visited August 30, 2021)
Bureau of Labor Statistics, Databases,
Tables & Calculators by Subject,
Puerto Rico (Aug. 11, 2020),
https://data.bls.gov/timeseries/LASST72
0000000000003 (last visited August 30,
2021)
Congressional Task Force on Economic
Growth in Puerto Rico, Report to the
House and Senate, 114th Congress
(Dec. 20, 2016) at 10,
https://www.finance.senate.gov/imo/
media/doc/Bipartisan%20Congressional
%20Task%20Force%20on%20Economic
%20Growth%20in%20Puerto%20Rico%
20Releases%20Final%20Report.pdf
(last visited August 30, 2021)

16

15

17

xiii
Pages
https://datausa.io/profile/geo/puerto-rico
(last visited August 30, 2021)
https://www.federalsafetynet.com/welfaredefinition.html (last visited August 30,
2021)
https://www.federalsafetynet.com/safetynet-programs.html (last visited
August 30, 2021)

17

18

18

Internal Revenue Service (hereinafter,
“I.R.S.”), SOI Tax Stats - Gross
Collections, by Type of Tax and State –
I.R.S. Data Book, Table 5, available at
https://www.irs.gov/statistics/soi-taxstats-gross-collections-by-type-of-taxand-state-irs-data-book-table-5
(last visited August 30, 2021)

9

Memorandum from William R. Morton,
Analyst in Income Security, 7-9453
from Congressional Research Service
dated October 26, 2016 regarding Cash
Assistance to the Aged, Blind and
Disabled in Puerto Rico, p. 6.
https://sgp.fas.org/crs/row/cash-agedpr.pdf (last visited August 30, 2021)

25

Michelle Raske, Puerto Rico awaits U.S.
ruling on tax credit for manufacturers,
Bloomberg, Dolly Tax Report, Dec. 6,
2019

17

xiv
Pages
Policy Basics – Aid to the Aged, Blind and
Disabled, Center on Budget and Policy
Priorities, updated Jan. 15, 2021 at p. 2.
https://www.cbpp.org/sites/default/files/
atoms/files/12-18-20bud.pdf
(last visited August 30, 2021)
See Public Assistance in Puerto Rico,*
Social Security Bulletin, July 1949
[*Prepared in the Statistics and
Analysis Division, Bureau of
Public Assistance.]
https://www.ssa.gov/policy/docs/ssb/
v12n7p.10.pdf (last visited on
August 31, 2021)
Puerto Rico – Information on How
Statehoold Would Potentially Affect
Selected Federal Programs and
Revenue Sources, GAO Report 14-31
to Congressional Requesters from
GAO, March 14 at p. 84;
https://www.gao.gov/assets/gao-1431.pdf (last visited August 31, 2021)

24

32

25

xv
Pages
Report by the President’s Task Force on
Puerto Rico’s Status for December 2005
and December 2007, at p. 3
http://charma.uprm.edu/~angel/Puerto_
Rico/reporte_status.pdf
(last visited Aug. 30, 2021)
https://www.justice.gov/archive/opa/docs
/2007-report-by-the-president-taskforce-on-puerto-rico-status.pdf
(last visited Aug. 30, 2021)
Reports, Bills, Debates, Act, and Supreme
Court Decisions, Social Security Act of
1935, Vol. I, H.R. 7260, 74th Congress,
1st Session, Public Law 271,
Department of Health, Education and
Welfare, Social Security
Administration, at p. 6901.
https://books.google.com/books/about/So
cial_Security_Act_of_1935.html?
(last visited August 31, 2021)
Statement on Signing the Social Security
Amendments of 1972—October 30, 1972,
President Richard M. Nixon, Historical
Links, SSA, No. 8,
https://www.ssa.gov/history/nixstmts.
html (last visited on August 31, 2021

3

31

35

xvi
Pages
Reports, Bills, Debates, Act, and Supreme
Court Decisions, Social Security Act of
1935, Vol. I, H.R. 7260, 74th Congress,
1st Session, Public Law 271,
Department of Health, Education
and Welfare, Social Security
Administration, at p. 6901.
https://books.google.com/books/about/
Social_Security_Act_of_1935.html?
(last visited August 31, 2021)
Studies peg cost of Jones Act on Puerto
Rico at $1.5 billion, Caribbean
Business, February 21, 2019,
https://caribbeanbusiness.com/studiespeg-cost-of-jones-act-on-puerto-rico-at-15-billlion/ (last visited on August 30,
2021)
The Impact of Disparities in SNAP and
SSI on Puerto Rico’s Poverty and
Economic Growth, Econometrika Corp.
https://media.noticel.com/o2com/
-noti-media-us-east-1/document_dev/
2019/03/09/Estudio%sobre%20disparid
ades%20en%20benecios%20del%
20PAN%20y%20SSI_1552160521539_
37305880_ver1.0.pdf (last visited on
August 31, 2021)
U.S. Congress 1952, H. Rept. 1365, 76

31

11

11
7

xvii
Pages
U.S. Census Bureau QuickFacts: Puerto
Rico. https://www.census.gov/
quickfacts/PR (last visited August 30,
2021
96 Cong. Rec. 8891-8894
(June 20, 1950)

16
32

No. 20-303
IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,
v.
JOSÉ LUIS VAELLO-MADERO,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
BRIEF OF U.S. CITIZENS FOR
EQUAL PROTECTION, INC.
AS AMICUS CURIAE IN
SUPPORT OF RESPONDENT
INTEREST OF THE AMICUS CURIAE1
U.S. Citizens for Equal Protection, Inc.
(hereinafter “USC”) is a non-profit corporation
organized and existing under the laws of the
The parties were notified and consented to the filing of this
brief more than 10 days before its filing. See Sup. Ct. R. 37.2(a).
No party’s counsel authored any of this brief; amicus alone
funded its preparation and submission. See, Sup. Ct. R. 37.6.
1

2
Commonwealth of Puerto Rico (hereinafter, “P.R.”)
since November 28, 2018.
Its objectives and purposes are to promote,
educate, and pursue the recognition to all American
citizens, wherever they may reside, but particularly
in P.R., of all rights, privileges, and immunities
provided under the Constitution of the United States
(hereinafter,
“Constitution”),
United
States
(hereinafter, “U.S.”) statutes and court rulings.
In this case, the Supplemental Security Income
for the Aged, Blind, and Disabled program
(hereinafter “S.S.I.”),2 among others, which excludes
all citizens of the U.S. and all other persons residing
in P. R. (hereinafter, collectively referred to as “P.R.
U.S. citizens”) reaches this Court so that it may
correct this wrong, under equal protection principles.
USC desires to participate in this case as amicus
curiae in support of the applicability to
P.R. U.S. citizens of the S.S.I. program, as decided by
the U.S. District Court for the District of P.R. in 2019
and Affirmed by the Court of Appeals for the First
Circuit in 2020.3
Therefore, as Respondent pursues the same
rights and remedies as USC, the latter favors the
2 See

42 U.S.C. §§ 1381-1383f.

The opinion of the court of appeals is part of this record at Pet.
App. 1a-37, and the opinion and order of the district court is also
part of this record at Pet. App. 38a-49a (hereinafter, “App.” or
“D.C.”).
3

3
Affirmance of the decision below, and further
supports Respondent’s position, as it is consistent
with USC’s own mission and objectives. In addition,
USC intends to bring to the attention of the Court
relevant matters not discussed and others requiring
corrections.
INTRODUCTION
P.R. has a rich tradition and history. The people
of P.R., as P.R. U.S. citizens, have enhanced
American society and culture.4
Among their many contributions, Puerto Ricans
have been recognized by their service and sacrifice in
the U.S. Armed Forces.5
Despite the status of Puerto Ricans as fullfledged P.R. U.S. citizens, and despite their service in
the defense of this country, “[t]the federal safety net
is flimsier and more porous in P.R. than in the rest of
the nation,” because federal programs aimed at
providing assistance to the nation’s low- and
moderate-income individuals and families are more
generously applied to U.S. citizens residing in the
fifty states than they are to similarly situated
See Report by the President’s Task Force on Puerto Rico’s
Status for December 2005 and December 2007, at p. 3, http://
charma.uprm.edu/~angel/Puerto_Rico/reporte_status.pdf
(last
visited Aug. 30, 2021); https://www.justice.gov/archive/opa/docs/
2007-report-by-the-president-task-force-on-puerto-rico-status.pdf
(last visited Aug. 30, 2021)..
5 Id.
4

4
P.R. U.S. citizens. See Martínez v. U.S. Dep’t of
Health & Human Servs., Civil Action No. 18-01206WGY at p. 1 (D.P.R. Aug. 3, 2020). “To be blunt, the
federal government discriminates against
Americans who live in Puerto Rico.” Id.
(emphasis added).
It is generally recognized that citizenship
concerns civil rights, economic rights, political rights
and social rights, including health care, nutrition,
education, housing, employment, and economic
benefits and assistance. This case deals with the
latter class of rights.
Federal law provides far fewer benefits6 for lowincome P.R. U.S. citizens than it does to similarly
situated U.S. citizens residing in the fifty states, and
constitutes an especially grievous and invidious
constitutional violation, as the Constitution does not
allow Congress to pick and select which constitutional
rights or programs apply to P.R. U.S. citizens.7

See Andrew Hammond, Territorial Exceptionalism and the
American Welfare State (July 13, 2020). 119 Michigan Law
Review, 1639 (2021; Staff, A Reckoning for “Rational”
Discrimination: Rethinking Federal Welfare Benefits in United
States-Occupied Islands, 43 U. Haw. L. Rev. [No. 1] (2020), 264.
7 See Boumediene v. Busch, 553 U.S. 723 (2008) and United
States v. Madero, 356 F. Supp. 3d 208, 213 (D.P.R. 2019).
6

5
STATEMENT
I.

Facts and Legal Proceedings.

The relevant facts and proceedings are not in
dispute and are aptly summarized in the decision of
the court of appeals.8
II.

Legal and Economic Background.9
A.

P.R.’s legal relationship with the U.S.

The U.S. took possession of P.R. by military
means during the Spanish-American War of 1898.
Consequently, Spain was forced to cede P.R. to the
U.S. under the Treaty of Paris.10
After two years under a military government,
Congress passed an act to temporarily provide
revenues and a civil government for P.R. (the
“Foraker Act”).11 The Foraker Act provided that,
among other things, with the exception of the
internal revenue laws, the federal statutory laws
were to have the same force and effect in P.R. as in
the U.S.12
See United States v. Vaello-Madero, 956 F.3d 12 (1st Cir. 2020).
9The
government’s brief on these topics require the
consideration of the following additional facts, developments and
corrections as to time, space and context.
8

See Treaty of Peace between the U.S. and the Kingdom of
Spain, Apr. 11, 1899, 30 Stat. 1754 (1899).
10

11

See 31 Stat. 77 (1900).

12

See 31 Stat. 413 (1917).

6
The Foraker Act was superseded in 1917 by the
Jones Act, which, among other provisions, provided a
bill of rights, including due process and equal
protection under the law, and granted U.S.
citizenship by collectively nationalizing P.R. residents
as U.S. citizens.13
The Nationality Act of 1940 considered P.R. part
of the U.S. for citizenship purposes.14 People born in
P.R. on or after January 13, 1941 and subject to the
jurisdiction of the U.S. are recognized as citizens of
the U.S. at birth,15 just as those born in the states.
Therefore, persons born in P.R. acquired a
birthright or jus soli citizenship. In other words, they
are considered under the laws as native or naturalborn citizens of the U.S. Congress confirmed this
interpretation with the 1948 Pagán/Fernós-Isern
Amendment16 and the Immigration and Nationality
13

See 39 Stat. 951 (1917).

See 8 U.S.C. § 202, Nationality at Birth, Nationality Act of
1940. The Nationality Act of 1940 was repealed and superseded
by the Immigration and Nationality Act of 1952., 66 Stat. 163,
Sec. 403(a)(42), which was initially the same text.
14

See 8 U.S.C. § 1402. On October 3, 1965, Congress approved
Pub. L. 89-236 to amend the Immigration and Nationality Act of
1952, 8 U.S.C. § 1151 et seq., but no changes were made to
Sec. 1402 above.
15

See 1948 Amendment of 1917 Jones Act and 1940 Nationality
Act Pub. L. No. 80-776 [§5d & 404(c)], known as the “1948
Pagán-Fernós-Isern Amendment,” which reaffirmed the
principle that after 1940, birth in P.R. was tantamount to birth
in the U.S. and that Puerto Ricans were native-born citizens of
the U.S.
16

7
Act of 1952.17 Congress has not enacted any other
citizenship provision for P.R. since 1952, so this
remains the law as of this date.
In 1947, Congress amended the Jones Act to not
only give qualified voters of P.R. the right to elect
their own Governor, but to mandate that the rights,
privileges, and immunities of citizens of the U.S. be
respected in P.R. to the same extent as though P.R.
were a state and subject to the provisions of Cl. 1 of
Sec. 2 of Article IV of the Constitution.18
In 1950, Congress enacted Public Law 60019 to
allow P.R. to organize a government for local
matters pursuant to a constitution of its own
adoption. 48 U.S.C. § 731b. Upon approval by the
qualified voters in a referendum, the legislature was
authorized to call a constitutional convention to draft
a constitution accordingly. 48 U.S.C. § 731c. The
people of P.R. approved the proposal offered by
Congress, and a Constitutional Convention was held
from Sept. 17, 1951 to Feb. 6, 1952. The Convention
drafted a constitution that was modified by

The accompanying House Report on the original legislation
states that “[t]he citizenship status of persons born in and living
in P.R. . . . is set out in the Nationality Act of 1940 and is carried
forward in the bill.” See U.S. Congress 1952, H. Rept. 1365, 76.
17

18

See Pub. L. No. 80–362, 61 Stat. 74 (1947).

See Puerto Rico Federal Relations Act, Pub. L. No. 81-600, 64
Stat. 319 (1950).
19

8
Congress,20 was then approved by the President, and
submitted to the people of P.R. that approved it, as
amended, in another referendum, on March 3, 1952.21
Because of the foregoing, many of the provisions
of the prior Foraker and Jones Acts related to
internal matters were repealed, but all other
remaining provisions dealing with the legal
relationship with the U.S. were maintained, and
renamed as the Puerto Rican Federal Relations Act.22
Thereafter, P.R. U.S. citizens continued to be
subject to all federal laws not locally inapplicable,
except for the internal revenue laws; they also
were required to pay federal taxes, except for
those that Congress, by statute, exempted from
federal taxation, such as income from local
sources.23 These provisions remain relevant and
effective as of this date.
B.

General Economic Background.

From 1998 up until 2006, while P.R. was
suffering from an economic recession, it consistently

Congress made revisions, including deleting Sec. 20 that
recognized a number of human rights, and approved it, as
amended. See Pub. L. No. 82-447, 66 Stat. 327 (1952).
20

21
22

See generally, 48 U.S.C. §§ 731c and d.
Id., §§ 731d and e.

23 See

26 U.S.C. § 933.

9
contributed more than $4 billion annually in federal
taxes and impositions into the national fisc.24
For many years now, all P.R. U.S. citizens have
been excluded, limited, capped or subjected to special
rules from federal benefit programs designed to raise
people from levels of poverty, such as Medicaid, S.S.I.,
Supplemental
Nutrition
Assistance
Program
(“SNAP”), and Medicare Part D Low-Income
Subsidies (“LIS”), among others.
However, if P.R. U.S. citizens move or relocate to
any of the 50 states, after completing residency terms
and/or other lenient requirements, they become
entitled to receive all applicable federal programs for
which they may qualify. To the contrary, if U.S.
citizens residing in any of the 50 states and the
District of Columbia with approved benefits under
S.S.I. move to P.R. their benefits are terminated, as it
happened to Mr. Vaello-Madero.
C.

P.R.’s economy has been, and continues to
be, in crisis, as it lacks internal effective
tools for recovery.

The Department of Health, Education and
Welfare Report of the Undersecretary’s Advisory
Group on P.R., Guam and the Virgin Islands
See Internal Revenue Service (hereinafter, “I.R.S.”), SOI Tax
Stats - Gross Collections, by Type of Tax and State – I.R.S. Data
Book, Table 5, available at https://www.irs.gov/statistics/soi-taxstats-gross-collections-by-type-of-tax-and-state-irs-data-booktable-5 (last visited August 30, 2021).
24

10
expressly rejected concerns about an influx of aid
disrupting the economy of P.R. since 1976.25
P.R.’s economic model collapsed in the late
1990’s. By the next decade tax incentives under
Section 936 of the Internal Revenue Code
(hereinafter, “I.R.C.”) were terminated and phased
out by Congress. In the meantime, government
employment had increased to a historic maximum,
federal grants to cover needs became erratic and
contingent on the political dynamics in Washington,
D.C., Congress had limited and/or reduced economic
benefits to P.R., and public indebtedness had reached
historic highs, causing budget deficits.26
Thus, P.R. was left by U.S. policy with no
significant tax advantages or other attractive
enhancements to offer to investors, and was not able
to create a strong local capital base to spur economic
development.
In 2006, tax advantages that had previously led
major businesses to invest in P.R. terminated by
Congressional mandate. Many industries left the
island, emigration increased, and the public debt of

25 See

Vaello-Madero, 956 F.3d at 22-23.

See Sergio M. Marxuach, A Brief Economic History of Puerto
Rico Since 1945, Weekly Review, CNE’s Team of Experts,
(Sept. 17, 2020), https://grupocne.org/2020/09/17/weekly-reviewseptember-17-2020 (last visited August 30, 2021).
26

11
P.R.’s government and its instrumentalities increased
exponentially.27
Due to these and other events, P.R.’s economy
entered a period of sustained decline that still
exists.28
A few29 relevant specific economic indicators
should be noted:
The Merchant Marine Act of 1920, Pub. L. 66261, 41 Stat. 988, prohibits foreign vessels from
transporting goods between two U. S. ports. Costs to
Puerto Ricans are generally estimated to be
$1.5 billion annually.30
By the summer of 2015, P.R. owed $72 billion in
bonded debt (exceeding its GNP) and another $50

27 Id.
28 Id.

For a more detailed study, see The Impact of Disparities
in SNAP and SSI on Puerto Rico’s Poverty and Economic
Growth, Econometrika Corp. https://media.noticel.com/o2com/noti-media-us-east-1/document_dev/2019/03/09/Estudio%sobre%
20disparidades%20en%20benecios%20del%20PAN%20y%20SSI_
1552160521539_37305880_ver1.0.pdf (last visited on August 31,
2021).
29

30 See

Studies peg cost of Jones Act on Puerto Rico at $1.5 billion,
Caribbean Business, February 21, 2019, https://caribbean
business.com/studies-peg-cost-of-jones-act-on-puerto-rico-at-1-5billlion/ (last visited on August 30, 2021).

12
billion in unfunded pension liabilities and could no
longer meet its financial obligations.31
Congress was forced to step in, as P.R. was not
allowed to restructure its debt,32 and Congress had on
its own, amended the Bankruptcy Code in 1981 to
exclude P.R. from filing for relief thereunder,33
leaving P.R. defenseless and subject to the mercy of
its multi-billion-owed creditors.
As a result, on June 30, 2016, Congress enacted
the P.R. Oversight, Management & Economic
Stability Act (“PROMESA”) creating the Financial
Oversight & Management Board for P.R. (hereinafter
“FOMB”) to oversee its fiscal budget, balance its
budget, oversee a bankruptcy-like process to
restructure P.R.’s debts, and promote economic
development, in order to allow it to return to capital
markets. Bankruptcy proceedings commenced in May
2017, and proceedings continue to this day. A plan of
reorganization is still been being negotiated.
Recovery is uncertain, but nevertheless, years ahead.
On September 20, 2017, Hurricane Maria
devastated P.R., knocking out the electrical grid,
disabling communications, flooding towns, homes,
and buildings, destroying infrastructure island-wide,
and killing nearly 3,000 people—one of the deadliest
See Fin. Oversight & Mgmt. Bd. for Puerto Rico v. Aurelius
Inv., LLC, 140 S. Ct. 1649, 1655 (2020).
31

32

Id.

33 See

11 U.S.C. § 903(1).

13
U.S. natural disasters in 100 years.34 Estimates for
Hurricane Maria damages ran in excess of $115
billion—more than P.R.’s annual GDP.35 In the
months following Hurricane Maria, many citizens
lacked necessities like power, running water, and
shelter, and businesses remained closed.36 The
Hurricane caused the longest blackout in U.S.
history.37 It took nearly 11 months for the Puerto
Rican Electric Power Authority to reconnect all 1.5
million customers who were impacted by the power
outage.38 Four years later, many U.S. P.R. citizens
Puerto Rico increases Hurricane Maria death toll to 2,975,
BBC News (Aug. 29, 2018), https://www.bbc.com/news/world-uscanada-45338080 (last visited August 30, 2021).
34

Rebecca Spalding, Economists paint bleak picture for Puerto
Rico’s Future, Bloomberg News (Nov. 18, 2017, updated Dec. 25,
2017), https://www.sentinelsource.com/news/economy/economistspaint-bleak-picture-for-puerto-ricos-future/article_7d337278-4a06575a-8536-fa2d4c3217a1.html (last visited August 30, 2021).
35

Danica Coto, 6 months after Hurricane Maria, Puerto Rico
pleads for help, AP (Mar. 16, 2018), https://apnews.com/article/
hurricane-maria-puerto-rico-us-news-ap-top-news-hurricanesaacab7041b4748408bd3911ad476d140 (last visited August 30,
2021).
36

Frances Robles, Contractors Are Leaving Puerto Rico, Where
Many Still Lack Power, N.Y. Times (Feb. 26, 2018),
https://www.nytimes.com/2018/02/26/us/puerto -rico-powercontractor.html (last visited August 30, 2021); Kyla Mandel,
Puerto Rico Recovery Efforts Plagued by Power Company’s
Financial Troubles (Feb. 20, 2018) https://tinyurl.com/y9gchp8w
(last visited August 30, 2021); C.K., More Puerto Ricans Leaving
for the Mainland, The Economist (Mar. 16, 2018),
https://tinyurl.com/y8a6vxdj (last visited August 30, 2021).
37

38 Alexia

Fernandez Campbell, It took 11 months to restore power
to Puerto Rico after Hurricane Maria. A similar crisis could

14
are still awaiting the aid necessary to rebuild.39 As of
2020, $49.9 billion have been appropriated for relief,
but only $16.6 billion disbursed.40 Even now,
approximately 30,000 families are still living under
plastic blue tarps instead of permanent roofs.41
More than two years later, Puerto Ricans still
had not recovered from Hurricane Maria, when P.R.
was hit by a series of earthquakes, 11 of which were
of magnitude 5 or greater. A 6.4 magnitude
earthquake struck P.R. on January 7, 2020, killing
one person, injuring several, and resulting in power
outages. That earthquake resulted in at least 51
aftershocks. On May 2, 2020, a 5.4 magnitude
happen again., Vox (Aug. 15, 2018), https://www.vox.com/
identities/2018/8/15/17692414/puerto -rico-power-electricityrestored-hurricane-maria (last visited August 30, 2021).
Arelis R. Hernández, Puerto Ricans still waiting on disaster
funds as Hurricane Maria’s aftermath, earthquakes continue to
affect life on the island, Washington Post (January 19, 2020),
https://www.washingtonpost.com/national/puerto-ricans-stillwaiting-on-disaster-funds-as-hurricane-marias-atermathearthquakes-continue-to-afect-life-on-the-island/2020/01/19/
3864fcea-387f-11ea-bb7b-265f4554af6d_story.html (last visited
August 30, 2021).
39

Ayesa Díaz Rolón, Apenas arrancan las obras de recuperación,
El Vocero, 18 de septiembre de 2020. See https://www.elvocero.com/
gobierno/apenas-arrancan-las-obras-de-recuperacion-article_
0382622c-f956-11ea-9d06-db0f8320e0b.html (last visited August
30, 2021).
40

Nicole Acevedo, Stateside Puerto Ricans demand answers to
unused hurricane aid to Puerto Rico, NBC News (March 10,
2020),
https://www.nbcnews.com/news/latino/stateside-puertoricans-demand-answers-unused-hurricane-aid-puerto-ricon1154236 (last visited August 30, 2021).
41

15
earthquake hit near southern P.R., and in July, two
strong earthquakes were felt across P.R.. Because of
the series of earthquakes this year, hundreds of
homes have been damaged or destroyed.
Today, P.R.’s recession continues, and it is facing
yet another dire financial crisis due to COVID-19.
Experts predict that the pandemic’s economic fallout
has the potential to be “even more difficult than the
one that followed Hurricane Maria.”42 In July 2020,
at least 300,000 Puerto Ricans had filed
unemployment claims linked to the pandemic, and
many others remained “ineligible for aid”—as they
did not participate in P.R.’s taxable economy.43
P.R.’s unemployment rate has soared in the last
decade,44 a situation that has only worsened from the
impact that COVID-19 has had on P.R.,45 and
unemployment is now estimated at 8.2 percent.46

Alexandra Rosa & Frances Robles, Pandemic Plunges Puerto
Rico Into Yet Another Dire Emergency, NY Times (July 8, 2020),
https://www.nytimes.com/2020/07/08/us/coronavirus-puerto-ricoeconomy-unemployment.html (last visited August 30, 2021).
42

43 Id.

Bureau of Labor Statistics, Databases, Tables & Calculators
by Subject, Puerto Rico (Aug. 11, 2020), https://data.bls.gov/
timeseries/LASST720000000000003 (last visited August 30,
2021).
44

Rosa & Robles, Pandemic Plunges Puerto Rico Into Yet
Another Dire Emergency.
45

Delgado, José A. Puerto Rico solo ha recibido el tercio del
dinero, El Nuevo Día, 20 de septiembre de 2020. See
46

16
In the last decade, over 10% of P.R.’s population
has emigrated, leaving behind a disproportionate
number of impoverished residents. P.R. already has
the highest poverty rate in the United States;47 with
the young and healthy fleeing the island, causing
hope of economic re-growth in the near future
diminished. In 2019, the U.S. Census Bureau’s 2019
P.R. Community Survey found that a net of 35,000
Puerto Ricans immigrated to the states, reducing the
population to 3,193,694, the largest decrease in
modern history.48
Even before COVID-19, P.R. faced a poverty rate
of 43.1%, which almost triples the U.S. national rate
of 13.1% and is more than twice the poverty rate of
the most impoverished state, Mississippi (19.7%).49 Of
P.R. residents under age 18, 58.3% live below the
federal poverty level, compared to a national average
https://www.pressreader.com/puerto-rico/el-nuevo-dia1/20200920/
281578063091566 (last visited August 30, 2021).
47 Rosa

& Robles, Id.

U.S. Census Bureau QuickFacts: Puerto Rico. https://
www.census.gov/quickfacts/PR (last visited August 30, 2021);
Christian G. Ramos Segarra, Population Loss Threatens Puerto
Rico's Debt Restructuring, The Weekly Journal (Sep. 24, 2020),
https://www.theweeklyjournal.com/online_features/populationloss-threatens-puerto-ricos-debt-restructuring/article_28cb17e4fe6b-11ea-9093-df665e53cbf8.html (last visited August 30, 2021).
48

Brian Glassman, More Puerto Ricans Move to Mainland
United States, Poverty Declines – A Third of Movers from Puerto
Rico to the Mainland United States Relocated to Florida in
2018, U.S. Census Bureau (Sept. 26, 2019), https://
www.census.gov/library/stories/2019/09/puerto-rico-outmigrationincreases-poverty-declines.html (last visited August 30, 2021).
49

17
of 20.7%.50 Of children in P.R. under age 5, 63.7% live
below the federal poverty level, compared to a
national average of 22.8%.51
After the hurricanes and earthquakes, P.R.’s
poverty rate is currently estimated by the 2019 U.S.
Census at 43.5%,52 although for some economists it is
near 44.1% and increasing, with a median household
income of $20,474.53
Last, but not least, P.R. waits an I.R.S. ruling on
its 4 percent tax credit for manufacturers. This is
because there are serious concerns whether or not the
I.R.S. will allow multinational companies operating
in PR to apply this local excise levy as a credit
against their federal taxes. Not surprisingly, there
are serious concerns that the I.R.S. is posed to
terminate the tax credit. This represents $2 billion in
tax income that P.R. may lose.54
Congressional Task Force on Economic Growth in Puerto Rico,
Report to the House and Senate, 114th Congress (Dec. 20, 2016)
at 10, https://www.finance.senate.gov/imo/media/doc/Bipartisan
%20Congressional%20Task%20Force%20on%20Economic%20Gr
owth%20in%20Puerto%20Rico%20Releases%20Final%20Report.
pdf (last visited August 30, 2021)..
50

51 Id.

See https://www.census.gov/quickfacts/PR
August 30, 2021).

(last

visited

See https://datausa.io/profile/geo/puerto-rico
August 30, 2021).

(last

visited

52

53

See Michelle Raske, Puerto Rico awaits U.S. ruling on tax
credit for manufacturers, Bloomberg, Dolly Tax Report, Dec. 6,
2019.
54

18
In spite of all of the above, federal statutory and
regulatory
provisions
explicitly
exclude
or
impermissibly limit approximately $3.2 million
P.R. U.S. citizens from receiving the same federal
benefits under S.S.I. given to U.S. citizens of equal
need who live in any of the fifty states and they are
not required to pay federal taxes in order to qualify
for benefits.
The above facts clearly show that it is federal
policy towards P.R. what created, maintains and
aggravates P.R.’s legal and economic problems.
D.

Federal Benefits Programs.

Federal
Benefit
Programs
(hereinafter
collectively referred to as, “F.B.P.”) are noncontributory and fit into 13 large categories focused
on low-income individuals and families.55 Together
with Medicaid, F.B.P. are considered to be antipoverty programs and the social safety net and are
administered by the federal government or the
various states.56 F.B.P are means-tested; i.e., in order
to qualify for benefits, the individual or family must
have income from job(s) or self-employment below
certain pre-defined level.57 F.B.P. are free to lowincome U.S. citizens—that is, there is no past
55 See

https://www.federalsafetynet.com/welfare-definition.html
(last visited August 30, 2021).
56 See

https://www.federalsafetynet.com/safety-net-programs.
html (last visited August 30, 2021).
See https://www.federalsafetynet.com/welfare-definition.html
(last visited August 30, 2021).
57

19
contribution or taxes paid that are necessary required
to qualify. These two elements, means-tested and
non-contributory, define the programs as welfare.58
Additionally,
these
programs
are
generally
independent of each other and cover a single aspect of
poverty. Each has specific regulations, goals and own
income qualification standards for participation, but
none of those programs require payment of taxes in
order to qualify. S.S.I. is one of those programs.
Each of these programs plays a critical role in
attempting to ensure that P.R. U.S. citizens are able
to live free from the hardships of poverty and can
procure basic human needs such as food, shelter, and
clothing.
Notwithstanding such clear and noble objectives
set forth by Congress, the Offices of the Solicitor
General and the Attorney General of the U.S. are
fighting tooth and nail in this case to maintain
P.R. U.S. citizens in a condition of disadvantage and
hardship.
E.

S.S.I.

S.S.I. provides benefits to low income individuals
who are older than 65, blind or disabled, if their
income and resources fall below specified limits, and
after exhausting all other welfare benefits programs.
This program, which is totally funded from the
General Treasury of the U.S., is a means-tested
58

Id.

20
program [Op. Ct. of Ap., p. 4; Peña-Martínez v. Azar,
376 F. Supp. 3d 191, 198 (D.P.R. 2019)], and does not
require payment of taxes from applicants in order to
qualify.
At the time Congress excluded S.S.I. from P.R.,
promising that in their next session, this omission
would be considered and corrected, but that never
happened. See ARGUMENT, Part IV.
Congress understood that the then existing
program, Aid to the Aged, Blind or Disabled
(“AABD”), was insufficient to cover the needs of the
aged, blind or disabled U.S. citizens residing in the 50
states and the District of Columbia—thus approving
S.S.I., a more generous program—but only for those
U.S. citizens. Congress understood that P.R. U.S.
citizens were sufficiently covered by the benefits
provided under AABD, even though those P.R. U.S.
citizens where precisely among the neediest ones
when you use a means-tested criterion to decide who
should receive benefits or not. It is not disputed that
the AABD program is much less generous than S.S.I.,
among other reasons, because the income and
resource thresholds are higher, writing-off many poor
people that would not be eligible for AABD but that
could qualify for S.S.I. and that the AABD monthly
benefit amount is significantly smaller than the one
received under S.S.I.59

During FY 2011, average AABD monthly payment was $73.85
whereas it was $438.00 under S.S.I.
59

21
In comparison, S.S.I. is an entitlement program
(while AABD is a capped categorical matching grant),
and as of FY 2011, only 34,401 persons in P.R.
qualified to receive AABD benefits. By contrast,
under S.S.I., if it would had been extended to P.R., it
is estimated that from 305,000 to 354,000 would have
been eligible. Vaello-Madero, 956 F.3d at 29-30.
As these facts show, AABD is not, and has never
been, an apt program to attend P.R.’s poor, aged,
blind and disabled population. This topic is further
expanded at ARGUMENT, Part II below. However,
the U.S. insists to the contrary.
ARGUMENT
I.

The U.S. raised new issues and arguments
before this Honorable Court that it did not
present before the District nor the Court of
Appeals.

The U.S. is now raising new issues and
arguments that were not considered by the lower
courts nor briefed by the parties.
The brief of the U.S. (hereinafter, “U.S. Brief”) at
Parts A.3, B.3 and throughout its brief, is now
including and arguing “additional considerations”
(U.S. Brief at p. 22) to further support its opposition
to the extension of the S.S.I. program to P.R.60 Those
While admitting that the President has announced that the
administration supports extending S.S.I. benefits to P.R. See
U.S. Brief at p. 40. This contradictory position is unfathomable.
60

22
new considerations have to do with allegations that
the existing structure with the AABD promotes P.R.’s
ability to better govern itself as it is best positioned to
tailor its laws and programs to reflect “local
conditions.” The U.S. also makes reference, as an
additional consideration, to P.R.’s “unique degree of
autonomy and its relationship to the U.S. that has no
parallel in our history.” U.S. Brief at pp. 22-27 and
34-36. Both topics, as they are discussed now, are
nowhere to be found in the U.S.’s submissions below.
The general rule is that an appellate court will
not consider an argument raised on the first time on
appeal. However, this Court, in Singleton v. Wulff,
428 U.S. 106 (1976), avoiding the general rule,
indicated that this issue should be left to the
discretion of the courts of appeals, to be exercised on
the facts of the individual cases. In the First Circuit,
the leading case is National Association of Social
Workers v. Harwood, 69 F.3d 622, 624-29 (1st Cir.
1995), which held that appealing courts could address
an argument first raised on appeal only if “the
equities heavily” favor doing so, developing six factors
to consider in making this determination. Therefore,
discretion should not be affirmatively exercised
unless the equities are mainly in favor of allowing the
new argument. Otherwise, the argument will be
considered
waived.
This
is
founded
upon
considerations of fairness, judicial economy and
practical wisdom, as it is essential to prevent
prejudice to the adverse party and to allow the
reviewing courts below, to consider all positions of the
parties to rule on the matter in a complete fashion.

23
The U.S. purported additional considerations
deal with its justification that Congress acted
rationally in not extending the S.S.I. program to P.R.
In this sense, the U.S. presented to the courts below
its classical arguments in connection thereof, to wit—
P.R.’s tax status, “saving money” and “protecting the
fiscal integrity of government programs,” among
other peripheral, related arguments. U.S. Brief at
pp. 17-22.61 Therefore, the Respondent and the courts
below had the opportunity to consider, brief, argue
and decide these specific issues, but not the two
additional ones presented for the first time before this
Court.
Nonetheless, as it will be shown hereinafter,
those two additional arguments are not helpful at all
to the U.S.
On its face, most of the factors identified in the
Hardwood case are present here, as the two
additional arguments, even as they are pure issues of
law that can be decided without further fact-finding,
are not issues of constitutional magnitude, but
merely arguments to try to bolster the U.S.’s
justification for the exclusion of P.R. under the S.S.I.
program; do not threaten a miscarriage of justice as
the U.S. did not find it necessary to include them in
any of its prior submissions and much less deal with
The third classical argument, that is, that the S.S.I. program
“might seriously disrupt the Puerto Rican economy” was deemed
expressly waived by the court of appeals. Vaello-Madero, 956
F.3d at p. 22. Notwithstanding, the U.S. in fn. 2 of its Brief
seems to try to resurrect this argument.
61

24
federalism, comity and respect for independent
democratic institutions. Rather, it seems to have been
done deliberately to yield a tactical advantage at this
state of the proceedings, as the U.S. chose not to raise
them before the courts below, courts that
painstakingly, considered and analyzed every
argument presented by the U.S. in reaching their
decisions.
These two additional arguments of the U.S.
should be deemed waived for the above-stated
procedural grounds.
II.

The AABD does not promote P.R.’s ability
to govern itself, nor allows P.R. to tailor its
laws and programs to reflect “local
conditions”.

As mentioned earlier,62 the AABD program
cannot be seriously compared with the S.S.I.
Additionally, P.R.’s cap under the AABD is roughly
$36 million (yes, not billions), for adult assistance,
foster care, and adoption assistance.63 Moreover, this
figure is not indexed to inflation and has not changed
since 1997. The U.S. General Accounting Office
(hereinafter, “GAO”) estimated that in 2011 federal
spending on AABD was less than 2 percent of what it
would have been if Puerto Rico received full S.S.I.
62 See

STATEMENT, Part II.E.

See Policy Basics – Aid to the Aged, Blind and Disabled,
Center on Budget and Policy Priorities, updated Jan. 15, 2021 at
p. 2.
https://www.cbpp.org/sites/default/files/atoms/files/12-1820bud.pdf (last visited August 30, 2021).
63

25
benefits.64 Roughly 37,000 people participated in
AABD in an average month in 2015 (latest year
available) and received monthly benefits averaging
$75, including the basic benefit and shelter costs.
Fifty-five (55) percent of AABD participants are
disabled, while 44 percent are seniors and 1 percent
are blind. Federal spending on AABD was $26.5
million in 2015, with $25.2 million for benefit
payments and $1.3 million for administrative costs.
Based on this data, P.R.’s contributory spending
portion was an estimated $9.7 million, with $8.4
million for benefits and $1.3 million for
administrative costs. Combined expenditures were an
estimated $36.2 million ($33.6 million for benefits
and $2.6 for administration).65 Federal matching
grants are designed to augment territorial programs
with federal funds, but as reflected above, are simply
insufficient.66

The actual Puerto Rico AABD Monthly Benefits Data
[numbers are for FY 2011] in billions is $0.02 [34,401, average
monthly participating individuals by $58, average monthly
federal income benefit]. See Puerto Rico – Information on How
Statehoold Would Potentially Affect Selected Federal Programs
and Revenue Sources, GAO Report 14-31 to Congressional
Requesters from GAO, March 14 at p. 84; https://www.gao.gov/
assets/gao-14-31.pdf (last visited August 31, 2021).
64

65 Id.

at p. 3.

See Memorandum from William R. Morton, Analyst in Income
Security, 7-9453 from Congressional Research Service dated
October 26, 2016 regarding Cash Assistance to the Aged, Blind
and Disabled in Puerto Rico, p. 6. https://sgp.fas.org/crs/row/
cash-aged-pr.pdf (last visited August 30, 2021).
66

26
The U.S. is cognizant of the fact that Puerto Rico
has never been able to dedicate the sums needed to
properly attend the needs that are addressed under
this program. Moreso, today, when it is in bankruptcy
under PROMESA, with specific budgets that cannot
be modified as they are set forth by the FOMB and
approved by the Bankruptcy Court.
Therefore, the representations and additional
argument made by the U.S. in this regard are far
from being neither correct nor feasible, as P.R. has no
financial capacity to improve its meager AABD
program. Moreover, the federal matching grant does
not fill the gap.
III. P.R.’s unique degree of autonomy and
relationship to the U.S. that has no parallel
in our history, affords it a great degree of
autonomy and self-determination to decide
to use its money to find a territorial
supplement outside the AABD program is
not realistic, and fails to support the U.S.
position.
Volumes of ink have been spilled on the legal
and political relationship of P.R. with the U.S.
Nevertheless, only the strictly relevant topics will be
discussed hereunder in order to place this issue in its
proper perspective.
To start with, and as shown above, P.R. has no
resources to create new economic benefits programs

27
due to its insolvency status, and limited financial
wherewithal.
Moreover,
the
FOMB,
under
PROMESA, places strict budget limitations and
controls thereof. It must be reckoned that the FOMB
is mainly concerned with the repayment of the public
debt, for which a significant part of P.R.’s foreseeable
budgets will be used. This will not allow even a
remote possibility of P.R. being able to create a new
territorial welfare program that would cover the
needs of its population. Therefore, this additional
argument is impossible to be achieved, given existing
circumstances.
Turning to the legal and political relationship of
P.R. with the U.S., some legal corrections are in order
to show that this additional argument of the U.S. to
justify rationality for excluding P.R. from the S.S.I.
program is also misplaced.
It is beyond dispute that P.R. has been, since
1898, an unincorporated territory of the U.S., subject
to the plenary powers of Congress, except for
fundamental rights that are defined by the federal
judiciary, not by P.R. because it belongs to, but is not
part of, the U.S. Downey v. Bidwell, 182 U.S. 244, 287
(1901). This category originally applied to newly
acquired
island
territories
with
non-citizen
populations. However, when in 1917 the JonesShafroth Act67 collectively naturalized all residents of

See Organic for Puerto Rico (Jones-Shafroth Act), Pub. L. No.
64-368, 39 Stat. 957 (1917). It also must be recognized that
under the Jones Act some degree of self-governance was granted
67

28
P.R., excluding citizens of other countries, the U.S.
should have recognized that it was now dealing with
full-fledged U.S. citizens with constitutional rights,
privileges and immunities emerging directly from the
Constitution, and from clauses other than the
Territory Clause of Art. IV, Sec. 3, Cl. 2.68
In 1950, Congress passed Public Law 81-600,69
which allowed P.R. to draft its own constitution,
including a bill of rights, and to elect its own
government, which it did two years later. Although
the relationship of P.R. with the U.S. is labeled as a
“commonwealth”, this did not change the inherent
and still standing legal status of P.R. as an
unincorporated territory, which allows Congress to
exercise plenary control over it,70 and the Territory
Clause.

to P.R., while maintaining its status as a non-incorporated
territory.
68 As aptly stated by Judge Torruella: “The United States cannot
continue its state of denial by failing to assert that its
relationship with U.S. citizens who reside in Puerto Rico is an
egregious violation of their civil rights.” See Why Puerto Rico
Does not Need Further Experimentation with its Future: A Reply
to the Notion of “Territorial Federalism,” 131 Harv. L. Rev.
No. 3, p. 65 (2018).
69 See

Pub. L. No. 81-600, 64 Stat. 319 (1950).

As examples of Congress’ exercise of its plenary powers upon
P.R. even under the existing “commonwealth”, see Puerto Rico v.
Franklin California Tax-Free Trust, 136 S.Ct. 1938, 1942-43
(2016) wherein this Court struck P.R.’s legislated debtrestructuring plan for its public utilities deciding that P.R. was
preempted from legislating its own municipal bankruptcy and
70

29
The Congressional record of Law 600 is crystal
clear; it did not change the status of Puerto Rico as
an unincorporated territory, it did not alter the power
of sovereignty acquired by the U.S. under the terms
of the Treaty of Paris and did not change P.R.’s
fundamental
political,
social
and
economic
relationship to the U.S. The Puerto Rican leaders
promoting the bill admitted so much at that time.
The entire process was simply geared to provide P.R.
with a greater degree for local self-government in
internal matters. Achieving a constitution regarding
matters of strictly local concern—rights that were
not, at that time, been granted to any other
territory—did create an illusion that something
singular had been created, but in fact was not
created.71 At most, as stated in Rodríguez v. Popular
Democratic Party, 457 U.S. 1, 8 (1982), “Puerto Rico,
like a state is an autonomous political entity,
sovereign over matters not ruled by the [U.S.]
constitution.”

unable to pursue remedies under Chapter 9 of the Bankruptcy
Code. PROMESA is another dramatic example, as it creates a
supra legislative body that can overrule P.R.’s elected officials
under the existing commonwealth’s constitution. Finally,
reference was made earlier to the existing concerns regarding
PR’s tax credit for manufacturers. See p. 12 ante.
José Trías Monge. Puerto Rico, the Trials of the Oldest Colony
in the World, pp. 111-120. Yale University Press 1997. Mr. Trías
Monge was a direct participant in this process. The U.S. as
Amicus Curiae supporting respondents in the case of
Commonwealth of Puerto Rico v. Sánchez-Valle, 136 S. Ct. 1863
(2016) cannot be more specific on this subject.
71

30
Not satisfied with this legal reality, the
proponents of the “commonwealth” formula further
pursued their desire to achieve a true free and
associated state with the U.S. Those efforts continue
to date,72 but that are still to bear any fruits.
Sánchez-Valle did not change this reality, as it held
that P.R. still remains a territorial governance for
Congress.73
In sum, Law 600 and the P.R. constitution
underscore the realities of the legal-political
relationship of P.R. with the U.S. that exists since
1898. Moreover, and quite to the contrary, under
PROMESA, P.R. has no control over its finances,
which are committed mainly to pay creditors, as set
forth in a plan of reorganization that is still in the
making. This additional argument posed by the U.S.
is, therefore, without any valid foundation.
IV. P.R. U.S. citizens pay all federal taxes
required by the fiscal laws of the U.S.
At pp. 15-18 of its Brief, the U.S. insists upon its
classical argument that given that P.R. U.S. citizens
make a “reduced contribution to the federal treasury,”
it should therefore receive a reduced share of the
72 Ibid,

pp. 124-135.

Sanchez-Valle, 136 S. Ct. at 1876. See, U.S. Territories,
Introduction, Developments in the Law, 130 Harv. L. Rev. 1617,
No. 6, (2017); and Judge Torruella’s commentary thereto on Why
Puerto Rico Does not Need Further Experimentation with its
Future: A Reply to the Notion of “Territorial Federalism,” 131
Harv. L. Rev. No. 3, p. 65 (2018).
73

31
benefits funded by the Treasury, making reference to
isolated statements of members of Congress in that
regard. The U.S. is wrong on both tenets.
As to statements of members of Congress, it
should be noted that then Resident Commissioner of
P.R., Mr. S. Iglesias-Pantín pleaded in 1935, together
with other entities, for the inclusion of P.R. in what
was to become the Social Security Act (hereinafter
“S.S.A.”).74 As a matter of fact, earlier bills did
include P.R. within the definition of “State” and it
was generally understood that an amendment to
include P.R. would be submitted.75
In reaction thereto, President Roosevelt
acknowledged and regretted the omission, and asked
his administration to secure the inclusion of P.R.
within the provisions of the bill.76 Although
Chairman Doughton, of the Ways and Means
Committee of the House of Representatives,
acknowledged that P.R. had been originally included
but later excluded due to tax issues, he stated later at

Pub. L. 74-271, 49 Stat. 620. See Reports, Bills, Debates, Act,
and Supreme Court Decisions, Social Security Act of 1935, Vol. I,
H.R. 7260, 74th Congress, 1st Session, Public Law 271,
Department of Health, Education and Welfare, Social Security
Administration, at p. 6901.
74

https://books.google.com/books/about/Social_Security_Act_of_193
5.html? (last visited August 31, 2021).
See Reports, Bills, Debates, Act, and Supreme Court Decisions,
Social Security Act of 1935, at pp. 6901-02.
75

76

Id., p. 6901.

32
that time that those issues would be “ironed out
later”.77
It must be emphasized, however, that since the
Foraker Act, Congress exempted PR from the
applicability of the federal tax laws. This resulted
thereafter in I.R.S. Section 933 that excludes income
from local sources from federal income tax. This was
recognized in Congress at the time of the 1950 bill to
extend the Social Security Law to P.R. The following
partial excerpts of the transcript78 are right on point:
MR. LEHMAN: Mr. President, I call up
my amendment marked “5-22-50-A,”
being the amendment to include Puerto
Rico and the Virgin Islands along with
the States, which are to receive
assistance.
THE
VICE
PRESIDENT.
amendment will be stated.

The

[See p. 8891 for a transcript of the
amendment.]
Id., p. 6902.The ironing-out finally occurred in 1939 and 1950.
No serious concern was raised then as to tax issues. See Public
Assistance in Puerto Rico,* Social Security Bulletin, July 1949
[*Prepared in the Statistics and Analysis Division, Bureau
of Public Assistance.] This summarizes operations under the
island’s public assistance law and calls attention to the
increasing need for more adequate provisions. https://www.
ssa.gov/policy/docs/ssb/v12n7p.10.pdf (last visited on August 31,
2021).
77

78

At 96 Cong. Rec. 8891-8894 (June 20, 1950).

33
MR. LEHMAN: Mr. President, no
geographic area in the United States
more urgently needs the public
assistance provisions of House bill 600
than Puerto Rico and the Virgin Islands.
My amendment is a very simple one, in
that it includes Puerto Rico and the
Virgin Islands in the definition of States.
I believe that all the titles of the S.S.A.
should be applicable to Puerto Rico and
the Virgin Islands on the same basis on
which they are applicable to the States.
...
It is true that Puerto Rico and the Virgin
Islands do not pay taxes into the United
States Treasury on the same basis as the
States of the Union. However, this is not
a failure on their part. It is a waiver on
the part of the Federal Government in
recognition of the peculiar economic
conditions pertaining in those islands.
...
We dare not forfeit our obligations to
these American citizens.
...
MR. LEHMAN. I realize that; but those
taxes are retained in Puerto Rico for the
support of the government there; they
are not used for old-age pensions or
public assistance.

34
Mr. President, as I just said, we dare not
forfeit our obligations to these American
citizens. They are American citizens just
as much as are the citizens of San Diego,
Chicago, or New York. In fact, when
Puerto Ricans or Virgin Islanders come
to New York, they are automatically
eligible for public-assistance payments.
There is no reason for considering them
less eligible when they are in Puerto
Rico or the Virgin Islands.
I urge with all conviction at my
command that we approve the pending
amendment and that we make these
islands eligible for public-assistance
grants on the same basis as any other
part of the United States is eligible.
...
MR. O’MAHONEY. Mr. President, if the
Senator from New York had not himself
offered this amendment, I am sure that I
should have done so.
The Committee on Interior and Insular
Affairs has immediate concern over the
peoples and the government of Puerto
Rico and the Virgin Islands. Both these
areas were brought into the United
States by the action of our Government,
not primarily by the action of the people
of those islands. The Virgin Islands were
purchased by the Government of the

35
United States. Puerto Rico was taken
over by the United States as a result of
the Spanish-American War.
I think the Government and the people
of the United States owe an absolute
obligation to the peoples of those islands
to treat them in the way that the
amendment proposed by the Senator
from New York provides. I certainly
hope that this amendment will be
adopted, so that the Government of the
United States may carry out its full
responsibility toward the peoples of
these islands.
The same situation occurred when the 1972
Amendments to the S.S.A., that repealed the state
programs of aid to the aged, blind and disabled with
S.S.I., was deemed a landmark legislation that would
end many old inequities and would provide a new
uniform system of well-earned benefits for older
American, the blind and the disabled.”79 Yet, once
again, P.R. was excluded.
However, on the floor, the issue of P.R.’s
exclusion was raised by Mr. Burdick, who
represented that Mr. Long had assured him that in

See Statement on Signing the Social Security Amendments of
1972—October 30, 1972, President Richard M. Nixon, Historical
Links, SSA, No. 8, https://www.ssa.gov/history/nixstmts.html
(last visited on August 31, 2021.
79

36
the next session that matter would be considered and
corrected. Mr. Long confirmed that assurance.80
It should then be noted that the Congressional
intent at that time was in favor of extending these
programs to P.R. Therefore, contrary to the assertions
of the U.S., although P.R. was originally excluded
from the S.S.A., it was done under an unfulfilled
promise to correct the error in the next Congressional
Session. This occurred in 1939 and 1950,
notwithstanding P.R.’s tax situation. As to the S.S.I.,
P.R. is still excluded thereunder, even though it was
to be promptly corrected.
In sum, Congressional intent to both bills was in
favor of including P.R., without concern to its tax
structure, created by Congress. If P.R. has not paid more
in income taxes throughout the years, it is only as a
consequence of Congress’ own decision to exclude income
from P.R. local sources as taxable federal income.
It is then utterly unfair and improper for the
U.S. to charge P.R. with generally paying fewer taxes
than other states, and to use it to justify the exclusion
under S.S.I., when P.R. had no say as to these
matters, could not act otherwise, and was obligated to
follow federal law.

80

118 Cong. Rec. 33,999 (1970).

37
CONCLUSION
Considering Respondent’s and Amicus briefs
altogether, and the facts and data included above, it
should be concluded that P.R. U.S. citizens are in
urgent need of federal programs of social assistance,
the same that are available to all other U.S. citizens,
such as S.S.I. and that the Government of P.R. has
been and continues to be unable to financially attend
to the grave necessities of this particularly needy
population. This is an issue of a constitutional right—
equal protection of the law—and not related in any
way to Territory law (which is irrelevant and stands
unchanged since 1898).
Further, the U.S. position in this case is contrary
to the position of the current administration.
Finally, the U.S. efforts in this case to support
exclusion of P.R. from the S.S.I. program defies any
rational, logical, legal, fair nor factual justification—
more than all of this, it cannot be comprehended why
the U.S. still, at this time and age, insists in treating
P.R. U.S. citizens unequally81 from those in the rest of
the nation solely by reason of locality.

See Plessy v. Ferguson, 163 U.S. 537, 552 (1896) and Juan R.
Torruella, The Supreme Court and Puerto Rico: The Doctrine of
Separate and Equal (Rio Piedras: Editorial de la Universidad de
Puerto Rico (1985), at p. 7 (advocating equality for Puerto Rican
peoples).
81

38
PRAYER FOR RELIEF
The judgment of the court of appeals for the first
circuit should be affirmed.
Dated: September 7, 2021.
Respectfully submitted,
JRGI LAW LLC
By: /s/ José R. González-Irizarry
José R. González-Irizarry
Counsel of Record
Club Manor
1228 Tomás Agrait St.
San Juan, Puerto Rico 00924
(787) 565-9786
jrgilawllc@gmail.com
Counsel for Amicus Curiae

